No. 20-1643

In the Supreme Court of the United States
_____________

ARTHUR BAISLEY,
v.

Petitioner,

INTERNATIONAL ASSOCIATION OF MACHINISTS AND
AEROSPACE WORKERS,

Respondent.

_____________

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
_____________
REPLY BRIEF FOR THE PETITIONER
_____________
FRANK D. GARRISON

Counsel of Record

MILTON L. CHAPPELL
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
fdg@nrtw.org

Counsel for Petitioner
August 16, 2021

ii
TABLE OF CONTENTS
Page(s)
Reply Argument .......................................................... 1

1
REPLY ARGUMENT
The Court should grant review to make clear that
the First Amendment and federal law protect employees regulated under the Railway Labor Act from optout regimes—regimes which “create[ ] a risk that the
fees paid by nonmembers will be used to further political and ideological ends with which they do not
agree.” Knox v. SEIU, Loc. 1000, 567 U.S. 298, 312
(2012). Respondent International Association of Machinists does not dispute the importance of the question presented, which implicates those employees’
fundamental constitutional and statutory rights. Instead, IAM largely parrots the Fifth Circuit’s decision
below, ignores this Court’s precedents, and relies on
dicta this Court has already repudiated. IAM’s brief
underscores the need for this Court’s review.
1. The brief in opposition reinforces the need for
this Court to clarify that this Court’s precedents bind
the lower courts. Railway Employees’ Department v.
Hanson held the First Amendment is implicated under RLA § 2, Eleventh, 45 U.S.C. § 152, Eleventh,
when unions and employers compel employees to pay
unions money as a condition of continued employment. 351 U.S. 225, 232 (1956). And the Court reaffirmed that holding when analyzing the procedures
required to collect money from employees under RLA
§ 2, Eleventh in Ellis v. Railway Clerks, 466 U.S. 435,
455–56 (1984). See Pet.Br. 10−13.
Hanson and Ellis are binding Court precedents.
Yet IAM acts as if they are not. IAM, like the Fifth
Circuit, disregards these precedents and argues a
footnote in Janus v. AFSCME, 138 S. Ct. 2448 (2018),
“forecloses” applying First Amendment scrutiny to
RLA § 2, Eleventh. Res.Br. 8–10 (citing Janus, 138 S.

2
Ct. at 2479 n.24). But the Court in that footnote said
it was not resolving the open and disputed question of
whether there is state action under private-sector labor statutes. Janus, 138 S. Ct. at 2479 n.24. Janus did
not overrule the Court’s Hanson and Ellis precedents
applying First Amendment scrutiny to compulsory
fees imposed under the RLA.
The Fifth Circuit’s failure to apply First Amendment scrutiny to IAM’s opt-out regime conflicts with
Hanson and Ellis. Likewise, the Fifth Circuit’s failure
to hold opt-out regimes unconstitutional conflicts with
Knox, 567 U.S. at 312–14, and Janus, 138 S. Ct. at
2486, in which the Court strongly suggested and then
held opt-out regimes violate the First Amendment.
See Pet.Br. 12−13. Certiorari is warranted to correct
this conflict.
2. IAM also ignores this Court’s precedents interpreting RLA § 2, Eleventh to avoid constitutional
problems. See Machinists v. Street, 367 U.S. 740, 749–
50 (1961); Ellis, 466 U.S. at 444−45. After Knox and
Janus, the Fifth Circuit should have construed RLA
§ 2, Eleventh to forbid opt-out requirements. Indeed,
this construction is the most logical interpretation of
RLA 2, Eleventh’s text and reflects the RLA’s history
and structure. See Pet.Br. 13−17.
IAM does not confront these precedents but doubles down on the Fifth Circuit’s flawed reasoning that
Street held the RLA allows opt-out regimes as a statutory matter. Res.Br. 4−7. Not so. As the Court made
clear in Knox, Street’s language that “dissent is not to
be presumed” is dicta and inconsistent with the principle that courts “do not presume acquiescence in the
loss of fundamental rights.” Knox, 567 U.S. at 312–13
(citations & quotations omitted). There is no basis in

3
this Court’s precedents for upholding IAM’s opt-out
regime.
At bottom, the Fifth Circuit’s reliance on Street’s
dicta—and its failure to engage in any statutory analysis of whether First Amendment principles should
inform what the statute requires—defies this Court’s
precedents interpreting the RLA to avoid constitutional problems. And without this Court’s intervention, courts, like the Fifth Circuit here, will continue
to misconstrue Street’s dicta and uphold burdensome
opt-out requirements under the RLA.
3. In Knox, the Court held that once it is recognized a “nonmember cannot be forced to fund a union’s
political or ideological activities,” there is no “justification for putting the burden on the nonmember to opt
out” of paying for those activities. Knox, 567 U.S. at
312. Given that explicit ruling, the Fifth Circuit
should have held IAM’s opt-out regime breaches its
Duty of Fair Representation. See Pet.Br. 18.
IAM responds that its opt-out regime is not “arbitrary” because of “longstanding practice and established case law.” Res.Br. 7 n.2 (citing Pet.App. 2). But
that is not a justification for IAM’s opt-out requirement. Nor does it rebut this Court’s more recent holding in Knox that there is no “justification” for opt-out
regimes. Indeed, IAM does not mention—much less
confront—this Court’s recent precedent in Knox.
The Duty of Fair Representation exists to protect
nonmember employees from unions that wield government-backed power. See Steele v. Louisville & N.R.
Co., 323 U.S. 192, 198 (1944); Pet.Br. 18. But if lower
courts, like the Fifth Circuit here, can disregard this
Court’s precedent when applying the Duty of Fair
Representation, then that duty becomes a toothless

4
doctrine. The Court should grant the petition and
make clear the RLA’s Duty of Fair Representation
protects nonmember employees—employees who are
forced by the statute to associate with a union—from
the improbable presumption they want to fund IAM’s
political activities.
CONCLUSION
The Fifth Circuit’s decision is paradoxical. It defies
this Court’s longstanding precedents in Hanson and
Ellis that the First Amendment is implicated by RLA
§ 2, Eleventh, but treats as binding precedent language in Street that this Court in Knox explicitly said
was flawed dicta, 567 U.S. at 312–13. The Fifth Circuit’s decision conflicts with this Court’s First Amendment and RLA precedents concerning forced union
fees. The Court should grant the petition.
Respectfully submitted,
FRANK D. GARRISON

Counsel of Record

MILTON L. CHAPPELL
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
fdg@nrtw.org

Counsel for Petitioner
August 16, 2021

